Audit Report

Office of Justice Programs,
Bureau of Justice Assistance,  
Statewide Ridge House Collaborative Grant
Awarded to the Ridge House, Inc., 
Grant Number 2001-DD-BX-0044, Reno, Nevada

Report No. GR-90-05-006


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Statewide Ridge House Collaborative grant, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), Bureau of Justice Assistance, to the Ridge House, headquartered in Reno, Nevada.  The mission of Ridge House is serving the criminal justice population through prevention, intervention and rehabilitation treatment, thereby assisting the community in our fight against crime.  As of September 17, 2002, Ridge House was awarded a total of $822,120.  We tested Ridge Houses accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.

Of the $821,069 expended as of December 31, 2003, we tested transactions totaling $337,901 and found some transactions lacked adequate support.  As a result, we question $8,778 in grant funds received.  

Seventeen of 20 employee timesheets reviewed did not document the supervisors review, certification, and approval of personnel charges to the grant.

	There were missing invoices or receipts totaling $8,778 during the review period.

	Thirteen of the 37 accountable property items sampled were not recorded in the grantees inventory.  None of the 37 items sampled were identified as purchased with federal funds.  Ten of the 37 sample items were not tagged with a property identification number for inventory purposes.

	Five of the 11 required Financial Status Reports (FSRs) were not submitted timely.

	Ten of the 11 FSRs submitted by the grantee did not accurately reflect the amount claimed as the federal share of the grant.  (The ten FSRs did not accurately reflect the amount of actual expenses per the accounting records).

	On seven occasions, the grantee did not time advances or reimbursements as required by the OJP Financial Guide, resulting in excess federal funds on hand.

	The grantee did not properly obligate $1,051 within the grant period of April 1, 2001 through December 31, 2003.  (Per the accounting records, the grantee still had $1,051 remaining on the books as of December 31, 2003).

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.